Fos
I

C@QCKLE

: E-Mail Address:
Le ga | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-264

COUNTY OF SAN DIEGO et al.,
Petitioners,
v.
ANA SANDOVAL,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
CALIFORNIA STATE ASSOCIATION OF COUNTIES, THE NATIONAL SHERIFFS’
ASSOCIATION, THE CALIFORNIA STATE SHERIFFS’ ASSOCIATION, THE CALIFORNIA
POLICE CHIEFS ASSOCIATION, AND THE CALIFORNIA PEACE OFFICERS’
ASSOCIATION AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 5318 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 23rd day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska “ve CLL
RENEE J. GOSS 0. *
Notary Public

My Comm. Exp. September 5, 2023
Affiant 41400
